                                                                                                                  e
                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A04-08                                                                            Page 1 of 1



                 Our office received an allegation that a senior NSF staff member1was using staff to baby sit
         his young boy during work hours and that staff were being asked to perform babysitting services
         during work hours. We interviewed the subject who confirmed that on two or three occasions he
         brought his son into work during a period when his spouse was confined to bed rest due to pregnancy
         and there was an outbreak of chicken pox at the son's daycare. The subject stated that most times he
         watched his son but on a few occasions he needed to attend meetings and set up a TV for his son to
         watch in his absense. On two occasions, his secretary kept an eye on his son and on one occasion
         other staff members watched his son. The subject stated on the third date in question, he was not
         aware that other staff members came to watch his son until he returned from his meeting.

                We talked with the subject's secretary as well as a staffmember who apparently watched the
         subject's son on one of the dates in question. Both individuals stressed that they voluntarily watched
         the subject's son because they knew of his wife's medical condition and wanted to help the subject
         since he had high-level management meetings to attend.

                Based on our inquiry, there appears to be no evidence that the subject inappropriately asked
         or coerced staff to watch his son during duty hours. Accordingly, this case is closed.




          'I

NSF OIG Form 2 (1 1/02)
